         TRIBAL AND OTHER TRUST FUNDS AND
       INDIVIDUAL INDIAN MONIES TRUST FUNDS
 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS




               ANNUAL REPORT 2009
                    TRIBAL AND OTHER TRUST FUNDS AND
                  INDIVIDUAL INDIAN MONIES TRUST FUNDS
            MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
           OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS



                                      Table of Contents

                                                                                    Tab

Letter from the Special Trustee                                                      1

Tribal and Other Trust Funds Financial Statements                                    2

Individual Indian Monies Trust Funds Financial Statements                            3

Tribal and Other Trust Funds Independent Auditors’ Report on
    Internal Control Over Financial Reporting and on Compliance and Other Matters    4

Individual Indian Monies Trust Funds Independent Auditors’ Report on
    Internal Control Over Financial Reporting and on Compliance and Other Matters    5
I am pleased to present the FY 2009 Tribal and            Improve Management of Land and Natural Resource
Other Trust Funds and Individual Indian Monies            Assets by providing appraisal information as requested
Trust Funds audited financial statements which            on trust and restricted lands for tribal and individual
are managed by the Office of the Special Trustee          Indian owners and exploring solutions to reduce the
for American Indians (OST). This letter provides          number of fractionated ownership interests in land.
information about what our office has
accomplished in the fulfillment of the Department         The following are a few of OST's FY 2009
of the Interior's fiduciary trust responsibilities.       accomplishments that improved services to trust
                                                          beneficiaries:
At OST, our day-to-day work is guided by our
Indian trust management mission statement-                  •   Processed a total of $520.8 million of receipts
"to perform our fiduciary trust responsibilities to             through the centralized commercial lock box and
American Indian tribes, individual Indians, and                 posted 76.75 percent to beneficiaries' accounts
Alaska Natives by incorporating a beneficiary                   within two days of receipt.
focus and beneficiary participation while providing         •   Disbursed more than $750 million to individual
effective, competent stewardship and                            Indian and tribal beneficiaries.
management of trust assets."                                •   Recovered addresses on 31 percent of the
                                                                Whereabouts Unknown accounts identified as of
Interior's Comprehensive Trust Management Plan                  October 1, 2008. This represented 26,225
(CTM) guides and describes the vision, goals and                accounts totaling $27.5 million.
objectives of fiduciary trust management and
                                                            •   Distributed funds for 8,502 completed probates
operations of the trust for all bureaus and offices             which closed 9,447 estate accounts.
within Interior. Achieving the goals in the plan will
                                                            •   Awarded a contract for the You pee Escheat
result in enhanced beneficiary services, reliable
                                                                distribution and closure project. Distributed
ownership information, and quality administrative
                                                                $1,405,828.
services; improved management of all trust fund
assets; and increased support for Indian self-              •   Assisted the Bureau of Indian Affairs (BIA) with
governance and self-determination.                              the distribution of $232,708 in appealed range
                                                                rate receipts from 168 aged special deposit
OST supports its goal to fulfill Indian fiduciary trust         accounts through the TAAMS invoicing and
responsibilities by implementing the following                  distribution module.
strategies:                                                 •   Implemented Check 21, which electronically
                                                                clears checks received from lessees.
Improve Indian Fiduciary Trust Beneficiary                  •   Mailed to beneficiaries more than 770,000
Services by continuing to provide timely, accurate              quarterly performance statements that provide
account performance statements and convenient                   sources of funds, encumbrance information (who
access to trust account services; communicating                 is leasing their trust property, duration of the
with beneficiaries and facilitating beneficiary                 lease, and payment terms) and listings of trust
involvement in trust management.                                property owned.
                                                            •   Provided tribal account statements on CD-ROM
Support Indian Self-Governance and Self-                        to approximately 100 tribes and provided tribes
Determination by fostering expansion of self-                   online account access.
governance compacts and self-determination                  •   Continued to emphasize debit card and direct
contracts.                                                      deposit options in lieu of paper checks, increasing
                                                                the total number of accountholders who have
Improve Indian Trust Ownership and Other                        chosen these options to over 26,500.
Information through prompt distribution of
                                                           •    Handled over 243,000 beneficiary inquiries.
financial trust assets to heirs after the Office of
                                                           •    Provided 3,864 outreach events to beneficiaries,
Hearing and Appeals renders probate decisions
                                                                which included wills clinics and financial skills
and ensuring accuracy of data maintained in
                                                                training.
offices and accounting systems.
                                                           •    Conducted 334 investment meetings with tribal
Manage Trust Fund Assets for Timely and                         representatives.
Productive Use through managing and investing              •    Maintained Self-Governance and Self-
funds held on behalf of individual Indians and                  Determination agreements with 33 tribes for the
tribes and receipting, disbursing, and accounting               real estate appraisals and individual Indian
for funds timely and accurately.                                beneficiary trust functions.
•   Continued improvement of the Office of              OST has improved service to trust beneficiaries
    Appraisal Services' workload management,            even as we face challenges managing this unique
    reduced the appraisal backlog by 93%                trust. In keeping with the CTM, OST will pursue
    between March and June 2009.                        the following priorities during FY 2010:
    Transmitted 8,000 appraisal products to
    clients throughout FY 2009 and                      1.   Employee Engagement
    implemented a clearer and more effective                 •     Implement Telework
    definition of backlog.                                   •     Enhance the Training Program
•   Collected and moved 13,647 boxes of                      •     Establish a Wellness Program
    records to the American Indian Records                   •     Improve Internal Communications
    Repository (AIRR). Indexed 12,690 boxes.                 •     Assess Skill Requirements
•   Provided support to the BIA Ft. Berthold                 •     Establish a Student Loan Repayment
    Agency by researching oil and gas                              Program
    development activities, providing updated
                                                        2.   Money Management
    National Indian Oil & Gas Evaluation &
    Management System (NIOGEMS) maps                         •     Convert to New Lockbox Contract
    identifying new well site locations,                     •     Implement Pay.Gov
    developing lease well production data to                 •     Partner with the Treasury for Direct
    track producing wells, and designing a field                   Deposit of Treasury Disbursed Per
    monitoring process for lease well                              Capita Payments
    management.                                              •     Establish and Implement a Short Term
•   Provided technical support for conversion of                   Investment Fund
    the Royalty Distribution and Reporting                   •     Expand Use of Direct Deposit and Debit
    System (RDRS) to the TAAMS oil and gas                         Cards
    royalty management module, including the            3.   Project Data
    implementation of a new simplified
                                                             •     Reconcile Discrepancy Reports
    Explanation of Payments.
                                                             •     Reconcile Historic Suspense Accounts
•   Received the Intertribal Monitoring
                                                             •     Establish TAAMS Reports Required by
    Association's report of Indian country's
                                                                   OST
    suggested solutions to fractionation.
                                                             •     Reconcile Post-conversion Issues of the
•   Awarded the Cannon Financial Institute
                                                                   TAAMS O&G System
    Certified Indian Fiduciary Trust Specialist
                                                             •     Resolve Public Domain Property Issues
    designation to 16 OST, three BIA and one
    tribal employee.                                    4.   Automation
•   Provided records management training to                  •     Enhance Imaging Capabilities
    711 BIA and OST records contacts and 272                 •     Minimize Manual Postings to the Trust
    tribal employees.                                              Funds Accounting System (TFAS)
•   Helped fund and support programs at the                  •     Enhance the Secure Trust Accounting
    National Indian Programs Training Center,                      Records System (STARS)
    based in Albuquerque, New Mexico.                        •     Explore BIA Access to the Trust
•   Developed public service announcements in                      Beneficiary Call Center System
    native languages.                                        •     Implement Electronic Disbursements for
•   Provided information to beneficiaries on their                 Tribal Credit Payments
    accounts and available services by                       •     Provide 11MBeneficiaries Online Account
    producing and distributing booklets,                           Access
    brochures and statement inserts.
                                                        5.   Geospatial
•   Conducted 64 Indian Trust Evaluations.
•   Performed 19 records assessments and                     •     Initiate a Pilot Project
    issued 21 record assessment reports to           I hope you find this year's audited financial
    identify improvements to OST and BIA             statements informative and useful. We welcome your
    Records Management Programs.                     help, comments, or suggestions for continued
•   Submitted to Congress an annual report, as       improvement.
    required by the 1994 Act.

                                                                                             Donna M. Erwin
                                                                 Acting Special Trustee for American Indians
                      U.S. Department of the Interior
                        Office of Inspector General




  INDEPENDENT AUDITORS’ REPORT ON THE
        TRIBAL AND OTHER TRUST FUNDS
               FINANCIAL STATEMENTS
                FOR FY2009 AND FY2008


     OFFICE OF THE SPECIAL TRUSTEE FOR
                   AMERICAN INDIANS




Report No. Q-IN-OST-0001-2009                November 2009
                    United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                    Washington, DC 20240


                                                                              NOV 1 8 2009


Memorandum

To:            Special Trustee for American Indians

From:          Kimberly Elmore            .-/t~ ~ ~
               Assistant Inspector General for Audits, Inspections and Evaluations

Subject:       Independent Auditors' Report on the Tribal and Other Trust Funds Financial
               Statements for FY2009 and FY2008 (Assignment No. Q-IN-OST-0001-2009)

INTRODUCTION

       This memorandum transmits the KPMG LLP ' s (KPMG) auditors' report of the Office of
the Special Trustee for American Indians (OST) financial statements for fiscal years (FYs) 2009
and 2008. The OST financial report contains financial statements and notes for Tribal and Other
Trust Funds (Tribal).

        The American Indian Trust Fund Management Reform Act of 1994 requires an audit of
the Tribal financial statements. Under a contract issued by OST and monitored by the Office of
the Inspector General (OIG), KPMG, an independent public accounting firm, performed an audit
of the OST FY2009 and FY2008 financial statements. The contract required that the audit be
performed in accordance with auditing standards generally accepted in the United States of
American and the "Government Auditing Standards" issued by the Comptroller General of the
United States.

RESULTS OF INDEPENDENT AUDIT

        In its audit report, dated November 10, 2009, KPMG issued a qualified opinion on the
Tribal financial statements because KPMG was unable to satisfy themselves as to the fairness of
trust fund balances due to certain parties, for whom OST holds assets in trust disagreeing with
the balances recorded by OST and/or having requested an accounting of their trust funds with
certain of these parties having filed claims against the United States Government.

        In addition, KPMG identified one significant deficiency in internal controls over financial
reporting. The deficiency addresses prior period umesolved trust account balances. KPMG
found no instances where OST did not comply with laws and regulations.
EVALUATION OF KPMG AUDIT PERFORMANCE

       To fulfill our monitoring responsibilities, the OIG:

              reviewed KPMG’s approach and planning of the audit;
              evaluated the qualifications and independence of the auditors;
              monitored the progress of the audit at key points;
              attended periodic meetings with OST management and KPMG to discuss audit
               progress, findings, and recommendations;
              reviewed KPMG’s audit report; and
              performed other procedures we deemed necessary.

       KPMG is responsible for the attached auditors’ report dated November 10, 2009, and the
conclusions expressed. We do not express an opinion on OST financial statements, internal
controls, or compliance with laws and regulations.

REPORT DISTRIBUTION

        The legislation, as amended, creating the OIG requires semiannual reporting to Congress
on all audit reports issued, actions taken to implement audit recommendations, and
recommendations that have not been implemented. Therefore, we will include the information in
the attachment in our next semiannual report. The distribution of the report is not restricted, and
copies are available for public inspection.

       The OIG appreciates the courtesies and cooperation extended to KPMG and our staff
during this audit. If you have any questions regarding the report, please contact me at 202–208–
5512.




Attachment

cc:    Deputy Secretary
       Principal Deputy Special Trustee
       Director, Office of Trust Review and Audit, Office of Special Trustee
       Program Analysis Officer, Office of Special Trustee
       Director, Office of Financial Management
       Associate Director, Finance, Policy and Operations, Office of Financial
         Management
       Audit Liaison Officer, Office of Financial Management
       Focus Group Leader, Internal Control and Audit Follow-up, Office of Financial
         Management


                                                2
           TRIBAL AND OTHER TRUST FUNDS
 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                    Financial Statements

                September 30, 2009 and 2008

         (With Independent Auditors’ Report Thereon)
                               KPMG LLP
                               Suite 700
                               Two Park Square
                               6565 Americas Parkway NE
                               PO Box 3990
                               Albuquerque, NM 87190




                         Independent Auditors’ Report on Financial Statements


The Special Trustee for American Indians
U.S. Department of the Interior Office of the Special Trustee
 for American Indians; and

U.S. Department of the Interior Office of Inspector General:

We have audited the accompanying statements of assets and trust fund balances – cash basis of the Tribal
and Other Trust Funds managed by the U.S. Department of the Interior Office of the Special Trustee for
American Indians (OST) as of September 30, 2009 and 2008, and the related statements of changes in trust
fund balances – cash basis for the years then ended. These financial statements are the responsibility of
management of OST. Our responsibility is to express an opinion on these financial statements based on our
audits.

Except as discussed in the fourth paragraph of this report, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of internal control
over financial reporting of the Tribal and Other Trust Funds managed by OST. Accordingly, we express no
such opinion. An audit also includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements, assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

As described in note 2, these financial statements were prepared on the cash basis of accounting, which is a
comprehensive basis of accounting other than generally accepted accounting principles.

It was not practicable to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of
trust fund balances in the accompanying financial statements as of September 30, 2009 and 2008 due to the
effects of certain parties for whom OST holds assets in trust disagreeing with balances recorded by OST
and/or having requested an accounting of their trust funds, and of which certain of these parties have filed
claims against the United States Government. Trust fund balances enter into the determination of financial
position and changes in trust fund balances.




                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
In our opinion, except for the effects on the financial statements of such adjustments, if any, as might have
been determined to be necessary had we been able to apply adequate procedures to determine the fairness
of trust fund balances and related changes in trust fund balances, as discussed in the preceding paragraph,
the financial statements referred to in the first paragraph above present fairly, in all material respects, the
financial position of the Tribal and Other Trust Funds managed by OST as of September 30, 2009 and
2008, and the changes in trust fund balances for the years then ended in conformity with the basis of
accounting described in note 2.

In accordance with Government Auditing Standards, we have also issued our report dated November 10,
2009 on our consideration of internal control over financial reporting and on our tests of Tribal and Other
Trust Funds’ compliance with certain provisions of laws, regulations and other matters of the Tribal and
Other Trust Funds managed by OST. The purpose of that report is to describe the scope of our testing of
internal control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. That report is an integral part
of an audit performed in accordance with Government Auditing Standards and should be read in
conjunction with this report in assessing the results of our audits.




November 10, 2009




                                                  2
                             TRIBAL AND OTHER TRUST FUNDS
                   MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                  OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                             Statements of Assets and Trust Fund Balances – Cash Basis
                                            September 30, 2009 and 2008
                                                   (In thousands)


                                   Assets                                        2009        2008
Cash and cash equivalents (note 3)                                        $       378,630     519,436
Investments (note 4)                                                            2,718,999   2,483,736
              Total assets                                                $     3,097,629   3,003,172
                        Trust Fund Balances
Held for Indian tribes (notes 7 and 9)                                    $     2,788,229   2,703,275
Held by the Department of the Interior and considered to be
  U.S. Government funds (note 7)                                                  309,400    299,897
              Total trust fund balances                                   $     3,097,629   3,003,172


See accompanying notes to financial statements.




                                                        3
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                          Statements of Changes in Trust Fund Balances – Cash Basis
                                   Years ended September 30, 2009 and 2008
                                                     (In thousands)


                                                                              2009        2008
Increases:
   Receipts                                                           $       437,898     371,169
   Interest received on invested funds                                        122,091     133,097
   Gain on disposition of investments, net                                      5,434       1,578
                                                                              565,423     505,844
Decreases:
  Disbursements to and on behalf of Indian tribes and other trust
     funds and withdrawal of trust funds by Indian tribes (note 9)           (470,966)   (383,331)
              Increase in trust fund balances, net                              94,457    122,513
Trust fund balances, beginning of year                                       3,003,172   2,880,659
Trust fund balances, end of year (notes 7 and 9)                      $      3,097,629   3,003,172


See accompanying notes to financial statements.




                                                          4
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008



(1)   Background and Description of the Trust Funds
      (a)   Overview of the Trust Funds
            Establishment and Management of the Trust Funds – The legislation that authorizes the
            Secretary of the United States Department of the Interior (Secretary) to manage the Tribal and Other
            Trust Funds recognizes the unique trust relationship that exists between the Indian tribes, individual
            Indians, and the United States Government (U.S. Government). Agreements between the
            U.S. Government and the various Indian tribes, many of these in the form of treaties, recognize the
            sovereignty of tribes. During the course of the United States’ history and the U.S. Government’s
            evolving policies toward Indian tribes, the trust relationship has retained characteristics based upon
            tribal sovereignty. The United States Congress has designated the Secretary as the trustee delegate
            with responsibility for the financial and nonfinancial resources held in trust on behalf of American
            Indian tribes, individual Indians, and other trust funds. In carrying out the management and oversight
            of the Indian trust assets, the Secretary has a fiduciary responsibility to ensure monies are received
            for the use of Indian lands and the extraction of natural resources from Indian lands, distribute such
            monies collected to the appropriate beneficiaries, ensure that trust accounts are properly maintained
            and invested, and ensure that accurate and complete reports are provided to the trust beneficiaries in
            accordance with applicable law.

            The balances that have accumulated in the Tribal and Other Trust Funds have resulted generally
            from judgment awards, settlement of claims, land use agreements, royalties on natural resource
            depletion, other proceeds derived directly from trust resources, and investment income.

            The accompanying financial statements include only the financial assets held in trust by the Office of
            the Special Trustee for American Indians (OST) for trust beneficiaries and do not include: (i) the
            operating account balances of OST (e.g., Fund Balance with Treasury; Property, Plant, and
            Equipment; etc.) or (ii) other Indian trust assets, including but not limited to, Indian lands, buildings,
            or other nonfinancial assets managed by the United States Department of the Interior
            (the Department).

            The Reform Act – The American Indian Trust Fund Management Reform Act of 1994
            (Public Law 103-412) (the Reform Act) authorized the establishment of OST, which is headed by the
            Special Trustee for American Indians (Special Trustee) who reports to the Secretary. Under this
            legislation, the Special Trustee is responsible for oversight, reform, and coordination of the policies,
            procedures, systems, and practices used by various bureaus and offices of the Department, including
            but not limited to OST, the Bureau of Indian Affairs (BIA) (a component of Indian Affairs (IA)), the
            Minerals Management Service (MMS), and the Bureau of Land Management (BLM), in managing
            Indian trust assets.

            Office of the Special Trustee for American Indians – Indian trust assets, including the Tribal and
            Other Trust Funds, are primarily managed under the delegated authority of OST and BIA.
            Management of Indian trust assets on behalf of the trust beneficiaries is dependent upon the
            processing of trust-related transactions within certain information systems of the Department,
            including but not limited to OST, BIA, MMS, and other Departmental bureaus and offices. BIA and

                                                         5                                                (Continued)
                        TRIBAL AND OTHER TRUST FUNDS
              MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
             OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                    Notes to Financial Statements
                                    September 30, 2009 and 2008



      other Departmental bureaus and offices are responsible for managing the natural resources located
      within the boundaries of Indian reservations and trust lands, as well as the processing of data
      regarding the ownership and leasing of Indian lands. The allocation of receipts and disbursements by
      OST to trust beneficiaries are significantly dependent and reliant upon the receipt of timely and
      accurate information derived from records maintained by BIA, MMS, and other Departmental
      bureaus and offices (see note 8).

      Regional Offices – OST and BIA maintain staff at regional offices located throughout the United
      States.

      Agency and Field Offices – OST and BIA maintain staff at agency and field offices located
      throughout the United States, which are generally located near the tribes and individual Indians
      served. OST and BIA personnel located at most of the agency and field offices perform various
      functions related to trust fund activities.

(b)   Description of the Trust Funds
      Certain of the Tribal and Other Trust Funds are subject to legal, regulatory, budgetary, court-ordered,
      or other restrictions (see note 7). A brief description of the Tribal and Other Trust Funds follows:

      •     Tribal Trust Funds – As of September 30, 2009 and 2008, approximately 2,700 accounts
            comprise the Tribal Trust Funds, which totaled approximately $2,788,229,000 and
            $2,703,275,000, respectively.
            Tribal Trust Funds realize receipts from a variety of sources, including judgment awards,
            settlement of claims, land use agreements, royalties on natural resource depletion, other
            proceeds derived directly from trust resources, and investment income.

      •     Other Trust Funds – Other Trust Funds are comprised of those funds classified as Held by
            the Department of the Interior and considered to be U.S. Government funds (see note 7). Other
            Trust Funds totaled approximately $309,400,000 and $299,897,000 as of September 30, 2009
            and 2008, respectively.

            Other Trust Funds realize receipts from a variety of sources including leases, rights-of-way,
            judgment awards, settlement of Indian claims, donations and bequests, and investment income.

(c)   Investment of Trust Funds
      Authorizing legislation and a substantial body of case law specify how Indian trust funds should be
      managed and which financial instruments constitute appropriate investments for Indian trust funds.
      The Tribal and Other Trust Funds are invested in U.S. Government securities, including
      U.S. Department of the Treasury (U.S. Treasury) issues, U.S. Government agency issues, and
      U.S. Government-sponsored entity issues.




                                                  6                                              (Continued)
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008



(2)   Summary of Significant Accounting Policies
      (a)   Basis of Accounting
            OST uses the cash basis of accounting for the Tribal and Other Trust Funds, which is a
            comprehensive basis of accounting other than generally accepted accounting principles. The cash
            basis of accounting differs from generally accepted accounting principles in that receivables and
            payables are not accrued and premiums and discounts on investments are not amortized or accreted.
            Receipts are recorded when received and disbursements are recorded when issued. Investments are
            stated at historical cost. Interest received on invested funds reported in the statements of changes in
            trust fund balances reflects interest received during the fiscal year.

      (b)   Cash and Cash Equivalents
            Management considers all highly liquid financial instruments with maturities of three months or less
            when purchased to be cash equivalents.

      (c)   Investments
            Investment securities at September 30, 2009 and 2008 consist of U.S. Treasury issues,
            U.S. Government agency issues, and U.S. Government-sponsored entity issues. Investment securities
            are recorded at historical cost. Investment income is recognized when received.

            The Tribal and Other Trust Funds are invested in U.S. Government securities, as mandated by
            25 USC 162a.

      (d)   Receipts
            Receipts from various leasing activities, mineral royalties and sales of extracted minerals, timber and
            other forest products, fees and fines, and the granting of easements are generated from a variety of
            nonfinancial assets that are held in trust by the U.S. Government and managed by BIA and other
            Departmental bureaus and offices on behalf of tribes. Receipts on hand at the regional and agency
            offices, and/or in-transit at September 30, 2009 and 2008, if any, awaiting deposit to the
            U.S. Treasury, are not included in the accompanying financial statements.

            Receipts also include payments from the U.S. Government for judgment awards and the settlement
            of claims.

      (e)   Disbursements
            Payments disbursed from the Tribal and Other Trust Funds consist of accumulations of funds from
            various income-producing activities such as leasing, royalty receipts, minerals extraction, timber and
            other forest product sales, judgment awards, settlement of claims, and investment income. Under
            certain conditions, tribes disburse per capita payments to their enrolled members.




                                                        7                                              (Continued)
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008



            Public Law 103-412 specifically allows for the voluntary withdrawal of judgment awards and
            settlement of claims funds from the Tribal and Other Trust Funds. Except where prohibited by
            statute, an Indian tribe may submit a plan to withdraw some or all funds held in trust for the tribe in
            accordance with 25 CFR 1200.

      (f)   Use of Estimates
            The preparation of the financial statements requires management to make estimates and assumptions
            that affect the reported amounts of assets at the date of the financial statements and the reported
            amounts of increases and decreases in trust fund balances during the reporting period. Actual results
            could differ from those estimates.

      (g)   Subsequent Events
            Subsequent events are evaluated by management through the date that the financial statements are
            available to be issued, which is November 10, 2009.

      (h)   Fair Value Measurements
            Financial Accounting Standards Board’s Accounting Standards Codification (ASC) Topic 820 Fair
            Value Measurements and Disclosure (ASC Topic 820) establishes an authoritative definition of fair
            value, sets out a framework for measuring fair value, and requires additional disclosures about fair
            value measurements. ASC Topic 820 applies only to fair value measurements already required or
            permitted by other accounting standards and does not impose requirements for additional fair value
            measures. ASC Topic 820 is effective for financial statements issued for fiscal years beginning after
            November 15, 2007 and is applied on a prospective basis. Since the Tribal & Other Trust Funds use
            the cash basis of accounting (see note 2(a)), the adoption of ASC Topic 820 on October 1, 2008 only
            affects note disclosures related to fair value.

(3)   Cash and Cash Equivalents
      Cash equivalents of approximately $375 million and $513 million at September 30, 2009 and 2008,
      respectively, consist of overnight investments with the U.S. Treasury.




                                                        8                                              (Continued)
                               TRIBAL AND OTHER TRUST FUNDS
                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2009 and 2008



(4)   Investments
      The historical cost, gross unrealized holding gains, gross unrealized holding losses, and fair value of
      investment securities by major class of security at September 30 were as follows (amounts exclude
      investments in U.S. Treasury overnight securities discussed in note 3):
                                                                                     Gross
                                                                   Gross           unrealized
                                                 Historical      unrealized         holding
                                                    cost        holding gains        losses       Fair value
                                                                        (In thousands)

      At September 30, 2009:
         U.S. Treasury and agency
           securities                        $    2,273,851           63,139           (5,015)      2,331,975
         U.S. Government entity
           issued mortgage-backed
           securities                               445,148           23,318             (892)       467,574
                                             $    2,718,999           86,457           (5,907)      2,799,549

      At September 30, 2008:
         U.S. Treasury and agency
           securities                        $    2,062,658           29,388          (15,344)      2,076,702
         U.S. Government entity issued
           mortgage-backed securities               421,078              1,806         (3,755)       419,129
                                             $    2,483,736           31,194          (19,099)      2,495,831


      The investments above held by the Tribal and Other Trust Funds at September 30, 2009 and 2008 consist
      of fixed income securities, some of which are mortgaged-backed debt securities, issued by the
      U.S. Treasury, U.S. Government agencies, or U.S. Government-sponsored entities. All of these securities
      are either explicitly or implicitly backed by the U.S. Government. Given the backing by the
      U.S. Government, current market conditions have not had a significant adverse impact on the fair value of
      these securities.




                                                      9                                            (Continued)
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008



      Maturities of investment securities were as follows at September 30, 2009:
                                                                               Historical cost      Fair value
                                                                                         (In thousands)
      Due in one year or less                                              $        312,048               314,069
      Due after one year through five years                                         519,812               543,975
      Due after five years through ten years                                        392,698               413,636
      Due after ten years                                                         1,494,441             1,527,869
                                                                           $      2,718,999             2,799,549


(5)   Fair Value Disclosure Measurements
      ASC Topic 820 defines fair value as the price that would be received from the sale of an asset or paid to
      transfer a liability (an exit price) in an orderly transaction between market participants on the measurement
      date in the principal or most advantageous market for the asset or liability. For measuring fair value
      ASC Topic 820 establishes a hierarchy that places the highest priority on unadjusted quoted market prices
      in active markets for identical assets or liabilities (Level 1 measurements), and the lowest priority on
      unobservable inputs (Level 3 measurements). The three levels of inputs within the fair value hierarchy are
      defined as follows:

            Level 1: Quoted prices (unadjusted) for identical assets or liabilities in active markets that the Tribal
            and Other Trust Funds have the ability to access as of the measurement date.

            Level 2: Significant other observable inputs other than Level 1 prices such as quoted prices for
            similar assets or liabilities; quoted prices in markets that are not active; or other inputs that are
            observable or can be corroborated by observable market data.

            Level 3: Significant unobservable inputs that reflect the Tribal and Other Trust Funds own
            assumptions about the assumptions that market participants would use in pricing an asset or liability.

      In many cases, a valuation technique used to measure fair value includes inputs from multiple levels of the
      fair value hierarchy. The lowest level of significant input determines the placement of the entire fair value
      measurement in the hierarchy. All of the investment securities held by the Tribal and Other Trust Funds at
      September 30, 2009 are valued using Level 2 inputs.

      The carrying value of cash and cash equivalents reflected in the statements of assets and trust fund
      balances approximates fair value. The fair value of investment securities disclosed in note 4 represent the
      best estimate of prices that the securities could be sold for in the open market as of September 30, 2009 and
      2008. Those fair values are measured using pricing services, pricing models, or broker quotes. Inputs into
      the pricing models include the securities par value, interest rate and maturity date. If broker quotes are used
      to value investment securities the fair value is estimated as the average of three broker quotes.



                                                        10                                               (Continued)
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008



      The fair value methods described above may produce fair value disclosures that may not be indicative of
      net realizable value or reflective of future fair values. Furthermore, while management believes that the
      valuation methods used on the Tribal and Other Trust Funds are appropriate and consistent with other
      market participants, the use of different methodologies or assumptions to determine the disclosed fair value
      of investment securities could result in a different fair value measurement at the reporting date.

(6)   Contingencies
      Certain Indian tribes for whom OST holds assets in trust do not agree with balances recorded by OST
      and/or have requested an accounting of their trust funds, and certain of these Indian tribes have filed claims
      against the U.S. Government for failure to fulfill its fiduciary responsibilities and for other related items.
      Ninety-eight tribal trust cases, brought by sixty-seven different tribes, currently are pending in various
      federal district courts and the U.S. Court of Federal Claims. The cases involve claims for trust fund and
      asset mismanagement, accounting, and other declaratory relief. A substantial number of the cases are
      stayed pending settlement negotiations or discovery. In addition, in many of these cases, the court does not
      have jurisdiction to grant monetary relief. Neither OST nor the Office of the Solicitor for the Department
      can presently determine the outcome of these actions nor the total amount, responsibility, and funding
      source of the potential liability. Any settlement resulting from an adverse outcome of the claims described
      above is not expected to be satisfied with trust fund balances. No amounts have been recorded in the
      accompanying Tribal and Other Trust Funds’ financial statements for potential claims from the
      U.S. Government.

(7)   Trust Fund Balances
      Trust fund balances are the aggregation of financial assets held in trust and represent the amounts owed to
      beneficiaries as of September 30, 2009 and 2008 for which OST has a fiduciary responsibility.

      The Tribal and Other Trust Funds contain the following trust fund balance categories for U.S. Government
      budget purposes, which are reflected as separate components in the accompanying financial statements:

      •     Held for Indian tribes – These represent funds held on behalf of Indian tribes. These funds are
            considered non-U.S. Government monies.
      •     Held by the Department of the Interior and considered to be U.S. Government funds – These
            represent funds, some of which will be transferred to the Held for Indian tribes category provided
            certain conditions are satisfied, and for others, the corpus of the fund may be nonexpendable. These
            funds are considered U.S. Government monies.

      A portion of trust fund balances represents estimated payments on production-type leases for which certain
      tribes and individual Indians hold an interest. When certain adjustments to production are identified,
      estimated payments received in excess of production are returned to the depositor or adjusted for in future
      payments.




                                                       11                                               (Continued)
                               TRIBAL AND OTHER TRUST FUNDS
                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2009 and 2008



(8)   Related-Party Transactions with Other Government Organizations
      (a)   U.S. Department of the Interior Bureau of Indian Affairs
            BIA is responsible for the collection of certain monies resulting from the management and use of
            Indian trust lands and other trust resources. Upon receipt, OST records the deposit of trust funds to
            trust accounts based on the information received from BIA.

      (b)   U.S. Department of the Interior Minerals Management Service
            For certain trust leases, MMS is responsible for the collection of royalty payments on behalf of
            Indian tribes and individual Indians holding mineral rights. MMS deposits the royalty payments with
            the U.S. Treasury and electronically transfers to OST the related accounting information, generally
            the next business day. The accounting information received from MMS provides OST an allocation
            of 100% tribally owned lease royalties, enabling OST to record trust deposits directly into tribal
            accounts. For tribally/individually co-owned leases and individually owned leases, allocation and
            accounting data is forwarded, generally twice a month, to OST via electronic interface through the
            Royalty Distribution Reporting System that is maintained by BIA. Pursuant to established procedure
            and appropriate authorization, the data is recorded by OST. MMS and BLM both perform
            verification and other monitoring procedures of mineral assets. Oil and gas companies sometimes
            forward payments to MMS based on estimated mineral production in order to comply with the
            Federal Oil and Gas Royalty Management Act of 1982 that requires timely distribution of royalties.
            These estimated payments may be disbursed by OST to the beneficiaries. Typically, the oil and gas
            companies adjust future payments for excess or shortfall amounts, if any, based on actual production.

      (c)   Other
            The U.S. Treasury holds cash and certain investments and in certain instances disburses for OST.

            The Department’s Office of the Solicitor serves as legal counsel for OST.




                                                      12                                             (Continued)
                              TRIBAL AND OTHER TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2009 and 2008



(9)   Transfers of Trust Funds
      Certain per capita disbursements authorized by tribes result in transfers from the Tribal and Other Trust
      Funds to the Individual Indian Monies (IIM) Trust Funds while certain oil and gas distributions may result
      in transfers to/from the IIM Trust Funds from/to the Tribal and Other Trust Funds. Net transfers of trust
      funds from the Tribal and Other Trust Funds to the IIM Trust Funds totaled approximately $56.7 million
      and $75.7 million during the years ended September 30, 2009 and 2008, respectively. These transfers are
      reflected as disbursements in the accompanying statements of changes in trust fund balances. In addition,
      pursuant to information provided by BIA, OST historically utilized special deposit accounts maintained
      within the IIM Trust Funds for both tribal and IIM beneficiaries as suspense accounts, whereby funds are
      temporarily posted when allocation information is not provided when the funds are received. Following
      receipt of allocation information from BIA, the funds are transferred from the special deposit accounts to
      the designated tribal and/or IIM account(s). Special deposit accounts totaled approximately $29 million
      and $31 million as of September 30, 2009 and 2008, respectively. The special deposit account monies held
      in the IIM Trust Funds relate to historical balances and has not been distributed because the ultimate
      disposition of the funds has not been determined. Since the ultimate disposition is unknown at
      September 30, 2009, the portion attributable to the Tribal and Other Trust Funds is unknown.




                                                      13
                      U.S. Department of the Interior
                        Office of Inspector General




  INDEPENDENT AUDITORS’ REPORT ON THE
        INDIVIDUAL MONIES TRUST FUNDS
               FINANCIAL STATEMENTS
                FOR FY2009 AND FY2008


     OFFICE OF THE SPECIAL TRUSTEE FOR
                   AMERICAN INDIANS




Report No. Q-IN-OST-0002-2009                November 2009
                      United States Department of the Interior
                                  OFFICE OF INSPECTOR GENERAL
                                       Washington, DC 20240


                                                                            NOV 1 8 2009


Memorandum

To:             Special Trustee for American Indians

From:           Kimberly Elmore               It/.rIc-v-C ~~ ~
                Assistant Inspector General for Audits, Inspections and Evaluations

Subject:        Independent Auditors' Report on the Individual Indian Monies Trust Funds Financial
                Statements for FY2009 and FY2008 (Assignment No. Q-IN-OST-0002-2009)

INTRODUCTION

       This memorandum transmits the KPMG LLP ' s (KPMG) auditors' report of the Office of the
Special Trustee for American Indians (OST) financial statements for fiscal years (FYs) 2009 and
2008. The OST financial report contains financial statements and notes for Individual Indian
Monies (lIM) trust funds.

        The American Indian Trust Fund Management Reform Act of 1994 requires an audit of the
lIM financial statements. Under a contract issued by OST and monitored by the Office of the
Inspector General (OIG), KPMG, an independent public accounting firm, performed an audit of the
OST FY2009 and FY2008 financial statements. The contract required that the audit be performed
in accordance with auditing standards generally accepted in the United States of American and the
"Government Auditing Standards" issued by the Comptroller General of the United States.

RESULTS OF INDEPENDENT AUDIT

         In its audit report, dated November 10, 2009, KPMG issued a qualified opinion on the 11M
financial statements because KPMG could not satisfy themselves as to the fairness of trust fund
balances in the financial statements due to certain parties for whom OST holds assets in trust having
filed a class action lawsuit for an accounting of the individuals' trust funds.

        In addition, KPMG identified one significant deficiency in internal controls over financial
reporting. The deficiency addressed prior period unresolved trust account balances. Further, KPMG
found no instances where OST did not comply with laws and regulations.

EVALUATION OF KPMG AUDIT PERFORMANCE

        To fulfill our monitoring responsibilities, the OIG:
              reviewed KPMG’s approach and planning of the audit;
              evaluated the qualifications and independence of the auditors;
              monitored the progress of the audit at key points;
              attended periodic meetings with OST management and KPMG to discuss audit
               progress, findings, and recommendations;
              reviewed KPMG’s audit report; and
              performed other procedures we deemed necessary.

       KPMG is responsible for the attached auditors’ report dated November 10, 2009, and the
conclusions expressed. We do not express an opinion on OST financial statements, internal
controls, or compliance with laws and regulations.

REPORT DISTRIBUTION

        The legislation, as amended, creating the OIG requires semiannual reporting to Congress on
all audit reports issued, actions taken to implement audit recommendations, and recommendations
that have not been implemented. Therefore, we will include the information in the attachment in
our next semiannual report. The distribution of the report is not restricted, and copies are available
for public inspection.

        The OIG appreciates the courtesies and cooperation extended to KPMG and our staff during
this audit. If you have any questions regarding the report, please contact me at 202–208–5512.




Attachment

cc:    Deputy Secretary
       Principal Deputy Special Trustee
       Director, Office of Trust Review and Audit, Office of Special Trustee
       Program Analysis Officer, Office of Special Trustee
       Director, Office of Financial Management
       Associate Director, Finance, Policy and Operations, Office of Financial Management
       Audit Liaison Officer, Office of Financial Management
       Focus Group Leader, Internal Control and Audit Follow-up, Office of Financial
         Management




                                                  2
       INDIVIDUAL INDIAN MONIES TRUST FUNDS
 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                    Financial Statements

                September 30, 2009 and 2008

         (With Independent Auditors’ Report Thereon)
                               KPMG LLP
                               Suite 700
                               Two Park Square
                               6565 Americas Parkway NE
                               PO Box 3990
                               Albuquerque, NM 87190




                         Independent Auditors’ Report on Financial Statements


The Special Trustee for American Indians
U.S. Department of the Interior Office of the Special Trustee
 for American Indians; and

U.S. Department of the Interior Office of Inspector General:

We have audited the accompanying statements of assets and trust fund balances – modified cash basis of
the Individual Indian Monies Trust Funds managed by the U.S. Department of the Interior Office of the
Special Trustee for American Indians (OST) as of September 30, 2009 and 2008, and the related statements
of changes in trust fund balances – modified cash basis for the years then ended. These financial statements
are the responsibility of management of OST. Our responsibility is to express an opinion on these financial
statements based on our audits.

Except as discussed in the fourth paragraph of this report, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of internal control
over financial reporting of the Individual Indian Monies Trust Funds managed by OST. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

As described in note 2, these financial statements were prepared on the modified cash basis of accounting,
which is a comprehensive basis of accounting other than generally accepted accounting principles.

It was not practicable to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of
trust fund balances in the accompanying financial statements as of September 30, 2009 and 2008 due to the
effects of certain parties for whom OST holds assets in trust having filed a class action lawsuit for an
accounting of the individuals’ trust funds. Trust fund balances enter into the determination of financial
position and changes in trust fund balances.

In our opinion, except for the effects on the financial statements of such adjustments, if any, as might have
been determined to be necessary had we been able to apply adequate procedures to determine the fairness
of trust fund balances and related changes in trust fund balances, as discussed in the preceding paragraph,
the financial statements referred to in the first paragraph above present fairly, in all material respects, the
financial position of the Individual Indian Monies Trust Funds managed by OST as of September 30, 2009
and 2008, and the changes in trust fund balances for the years then ended in conformity with the basis of
accounting described in note 2.

                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued our report dated November 10,
2009 on our consideration of internal control over financial reporting and on our tests of Individual Indian
Monies Trust Funds’ compliance with certain provisions of laws, regulations, and other matters of the
Individual Indian Monies Trust Funds managed by OST. The purpose of that report is to describe the scope
of our testing of internal control over financial reporting and compliance and the results of that testing, and
not to provide an opinion on the internal control over financial reporting or on compliance. That report is
an integral part of an audit performed in accordance with Government Auditing Standards and should be
read in conjunction with this report in assessing the results of our audits.




November 10, 2009




                                                  2
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                     Statements of Assets and Trust Fund Balances – Modified Cash Basis
                                         September 30, 2009 and 2008
                                                  (In thousands)


                                Assets                                       2009         2008
Cash and cash equivalents (note 3)                                     $       33,364      49,320
Investments (note 4)                                                          420,535     391,792
Accrued interest receivable                                                     3,210       3,077
              Total assets                                             $      457,109     444,189
                        Trust Fund Balances
Held for individual Indians (notes 7 and 9)                            $      457,109     444,189


See accompanying notes to financial statements.




                                                       3
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                     Statements of Changes in Trust Fund Balances – Modified Cash Basis
                                   Years ended September 30, 2009 and 2008
                                                     (In thousands)


                                                                             2009         2008
Increases:
   Receipts (note 9)                                                  $       334,236     437,911
   Interest earned on invested funds                                           20,792      21,602
   Gain on disposition of investments, net                                        126         255
                                                                              355,154     459,768
Decreases:
  Disbursements to and on behalf of account holders                          (342,234)    (439,276)
              Increase in trust fund balances, net                             12,920       20,492
Trust fund balances, beginning of year                                        444,189     423,697
Trust fund balances, end of year (notes 7 and 9)                      $       457,109     444,189


See accompanying notes to financial statements.




                                                          4
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008



(1)   Background and Description of the Trust Funds
      (a)   Overview of the Trust Funds
            Establishment and Management of the Trust Funds – The legislation that authorizes the
            Secretary of the United States Department of the Interior (Secretary) to manage the Individual Indian
            Monies Trust Funds (IIM Trust Funds) recognizes the unique trust relationship that exists between
            the Indian tribes, individual Indians, and the United States Government (U.S. Government).
            Agreements between the U.S. Government and the various Indian tribes, many of these in the form
            of treaties, recognize the sovereignty of tribes. During the course of the United States’ history and
            the U.S. Government’s evolving policies toward individual Indians and Indian tribes, the trust
            relationship has retained characteristics based upon tribal sovereignty. The United States Congress
            has designated the Secretary as the trustee delegate with responsibility for the financial and
            nonfinancial resources held in trust on behalf of American Indian tribes, individual Indians, and
            other trust funds. In carrying out the management and oversight of the Indian trust assets, the
            Secretary has a fiduciary responsibility to ensure monies are received for the use of Indian lands and
            the extraction of natural resources from Indian lands, distribute such monies collected to the
            appropriate beneficiaries, ensure that trust accounts are properly maintained and invested, and ensure
            that accurate and complete reports are provided to the trust beneficiaries in accordance with
            applicable law.

            The balances that have accumulated in the IIM Trust Funds have resulted generally from land use
            agreements, royalties on natural resource depletion, other proceeds derived directly from trust
            resources, receipt of judgment and tribal per capita distributions, settlement of claims, and
            investment income.

            The accompanying financial statements include only the financial assets held in trust by the Office of
            the Special Trustee for American Indians (OST) for trust beneficiaries and do not include: (i) the
            operating account balances of OST (e.g., Fund Balance with Treasury; Property, Plant, and
            Equipment; etc.) or (ii) other Indian trust assets, including but not limited to, Indian lands, buildings,
            or other nonfinancial assets managed by the United States Department of the Interior
            (the Department).

            The Reform Act – The American Indian Trust Fund Management Reform Act of 1994
            (Public Law 103-412) (the Reform Act) authorized the establishment of OST, which is headed by the
            Special Trustee for American Indians (Special Trustee) who reports to the Secretary. Under this
            legislation, the Special Trustee is responsible for oversight, reform, and coordination of the policies,
            procedures, systems, and practices used by various bureaus and offices of the Department, including
            but not limited to OST, the Bureau of Indian Affairs (BIA) (a component of Indian Affairs (IA)), the
            Minerals Management Service (MMS), and the Bureau of Land Management (BLM), in managing
            Indian trust assets.




                                                         5                                                (Continued)
                    INDIVIDUAL INDIAN MONIES TRUST FUNDS
              MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
             OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                    Notes to Financial Statements
                                    September 30, 2009 and 2008



      Office of the Special Trustee for American Indians – Indian trust assets, including the IIM Trust
      Funds, are primarily managed under the delegated authority of OST and BIA. Management of Indian
      trust assets on behalf of the trust beneficiaries is dependent upon the processing of trust-related
      transactions within certain information systems of the Department, including but not limited to OST,
      BIA, MMS, and other Departmental bureaus and offices. BIA and other Departmental bureaus and
      offices are responsible for managing the natural resources located within the boundaries of Indian
      reservations and trust lands as well as the processing of data regarding the ownership and leasing of
      Indian lands. The allocation and distribution of receipts and disbursements by OST to trust
      beneficiaries are significantly dependent and reliant upon the receipt of timely and accurate
      information derived from records maintained by BIA, MMS, and other Departmental bureaus and
      offices (see note 8).

      Regional Offices – OST and BIA maintain staff at regional offices located throughout the United
      States.

      Agency and Field Offices – OST and BIA maintain staff at agency and field offices located
      throughout the United States, which are generally located near the tribes and individual Indians
      served. OST and BIA personnel located at most of the agency and field offices perform various
      functions related to trust fund activities.

(b)   Description of the Trust Funds
      The IIM Trust Funds are comprised of approximately 384,000 and 378,000 accounts, held primarily
      for the benefit of individual Indian account holder beneficiaries and tribal entities, as of
      September 30, 2009 and 2008, respectively. Included within the IIM Trust Funds are certain special
      deposit accounts that are subject to legal, regulatory, budgetary, court-ordered, or other restrictions
      that may ultimately result in funds being distributed to tribal and/or other entities.

      The IIM Trust Funds are primarily funds on deposit for individual Indians with a beneficial interest
      in those funds. IIM account holders realize receipts primarily from land use agreements, royalties on
      natural resource depletion, other proceeds derived directly from trust resources, judgment and tribal
      per capita distributions, settlement of claims, and investment income.

(c)   Investment of Trust Funds
      Authorizing legislation and a substantial body of case law specify how Indian trust funds should be
      managed and which financial instruments constitute appropriate investments for Indian trust funds.
      The IIM Trust Funds are pooled and invested in U.S. Government securities, including
      U.S. Department of the Treasury (U.S. Treasury) issues, U.S. Government agency issues, and
      U.S. Government-sponsored entity issues.




                                                  6                                              (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008



(2)   Summary of Significant Accounting Policies
      (a)   Basis of Accounting
            OST uses the cash basis of accounting with certain modifications for the IIM Trust Funds, which is a
            comprehensive basis of accounting other than generally accepted accounting principles. Receipts are
            recorded when received with the exception of interest earned on invested funds (including discount
            accretion and premium amortization), and disbursements are recorded when issued. Investments are
            stated at amortized cost. Accrual adjustments to reflect interest earned but not received, and to record
            any applicable accretion of discounts and amortization of premiums over the terms of the
            investments, have been recorded in the accompanying financial statements. Interest income reported
            in the statements of changes in trust fund balances reflects interest earned, net of any premium
            amortization or discount accretion recognized during the fiscal year.

      (b)   Cash and Cash Equivalents
            Management considers all highly liquid financial instruments with maturities of three months or less
            when purchased to be cash equivalents.

      (c)   Investments
            Investment securities at September 30, 2009 and 2008 consist of U.S. Treasury issues,
            U.S. Government agency issues, and U.S. Government-sponsored entity issues. IIM Trust Funds are
            pooled and invested. Investment securities are recorded at amortized cost, adjusted for the
            amortization or accretion of premiums or discounts. Premiums and discounts are amortized or
            accreted over the expected life of the related investment security as an adjustment to yield using the
            effective-interest method. Investment income is recognized when earned.

            The IIM Trust Funds are invested in U.S. Government securities, as mandated by 25 USC 162a.

      (d)   Receipts
            Receipts from various leasing activities, mineral royalties and sales of extracted minerals, timber and
            other forest products, fees and fines, and the granting of easements are generated from a variety of
            nonfinancial assets that are held in trust by the U.S. Government and managed by BIA and other
            Departmental bureaus and offices on behalf of individual Indians. Receipts on hand at the regional
            and agency offices, and/or in-transit at September 30, 2009 and 2008, if any, awaiting deposit to the
            U.S. Treasury, are not included in the accompanying financial statements.

            Receipts also include payments from the U.S. Government for judgment awards and the settlement
            of claims.




                                                        7                                               (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2009 and 2008



      (e)   Disbursements
            Payments disbursed from the IIM Trust Funds consist of accumulations of funds from various
            income-producing activities such as leasing, royalty receipts, mineral extraction, timber and other
            forest product sales, judgment awards, tribal per capita distributions, settlement of claims, and
            investment income.

      (f)   Use of Estimates
            The preparation of the financial statements requires management to make estimates and assumptions
            that affect the reported amounts of assets at the date of the financial statements and the reported
            amounts of increases and decreases in trust fund balances during the reporting period. Actual results
            could differ from those estimates.

      (g)   Subsequent Events
            Subsequent events are evaluated by management through the date that the financial statements are
            available to be issued, which is November 10, 2009.

      (h)   Fair Value Measurements
            Financial Accounting Standards Board’s Accounting Standards Codification (ASC) Topic 820 Fair
            Value Measurements and Disclosure (ASC Topic 820) establishes an authoritative definition of fair
            value, sets out a framework for measuring fair value, and requires additional disclosures about fair
            value measurements. ASC Topic 820 applies only to fair value measurements already required or
            permitted by other accounting standards and does not impose requirements for additional fair value
            measures. ASC Topic 820 is effective for financial statements issued for fiscal years beginning after
            November 15, 2007 and is applied on a prospective basis. Since the IIM Trust Funds use the cash
            basis of accounting with certain modifications (see note 2(a)), the adoption of ASC Topic 820 on
            October 1, 2008 only affects note disclosures related to fair value.

(3)   Cash and Cash Equivalents
      Cash equivalents of approximately $28 million and $41 million at September 30, 2009 and 2008,
      respectively, consist of overnight investments with the U.S. Treasury.




                                                       8                                             (Continued)
                           INDIVIDUAL INDIAN MONIES TRUST FUNDS
                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2009 and 2008



(4)   Investments
      The amortized cost, gross unrealized holding gains, gross unrealized holding losses, and fair value of
      investment securities by major class of security at September 30 were as follows (amounts exclude
      investments in U.S. Treasury overnight securities discussed in note 3):

                                                                   Gross             Gross
                                                   Amortized     unrealized        unrealized
                                                     cost       holding gains    holding losses     Fair value
                                                                        (In thousands)

      September 30, 2009:
        U.S. Treasury and agency
           securities                          $      224,563            6,275                (6)      230,832
        U.S. Government entity issued
           mortgage-backed securities                 195,972         10,591                  —        206,563
                                               $      420,535         16,866                  (6)      437,395

      September 30, 2008:
        U.S. Treasury and agency
           securities                          $      183,576            1,817           (1,019)       184,374
        U.S. Government entity issued
           mortgage-backed securities                 208,216            1,230           (1,085)       208,361
                                               $      391,792            3,047           (2,104)       392,735


      The investments above held by the IIM Trust Funds at September 30, 2009 and 2008 consist of fixed
      income securities, some of which are mortgaged-backed debt securities, issued by the U.S. Treasury,
      U.S. Government agencies, or U.S. Government-sponsored entities. All of these securities are either
      explicitly or implicitly backed by the U.S. Government. Given the backing by the U.S. Government,
      current market conditions have not had a significant adverse impact on the fair value of these securities.

      Maturities of investment securities were as follows at September 30, 2009:
                                                                                 Amortized
                                                                                   cost            Fair value
                                                                                        (In thousands)
      Due in one year or less                                            $            9,999             9,994
      Due after one year through five years                                          47,989            48,492
      Due after five years through ten years                                         57,533            60,408
      Due after ten years                                                           305,014           318,501
                                                                         $          420,535           437,395



                                                       9                                             (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008



(5)   Fair Value Disclosure Measurements
      ASC Topic 820 defines fair value as the price that would be received from the sale of an asset or paid to
      transfer a liability (an exit price) in an orderly transaction between market participants on the measurement
      date in the principal or most advantageous market for the asset or liability. For measuring fair value
      ASC Topic 820 establishes a hierarchy that places the highest priority on unadjusted quoted market prices
      in active markets for identical assets or liabilities (Level 1 measurements), and the lowest priority on
      unobservable inputs (Level 3 measurements). The three levels of inputs within the fair value hierarchy are
      defined as follows:

            Level 1: Quoted prices (unadjusted) for identical assets or liabilities in active markets that the IIM
            Trust Funds have the ability to access as of the measurement date.

            Level 2: Significant other observable inputs other than Level 1 prices such as quoted prices for
            similar assets or liabilities; quoted prices in markets that are not active; or other inputs that are
            observable or can be corroborated by observable market data.

            Level 3: Significant unobservable inputs that reflect the IIM Trust Funds own assumptions about the
            assumptions that market participants would use in pricing an asset or liability.

      In many cases, a valuation technique used to measure fair value includes inputs from multiple levels of the
      fair value hierarchy. The lowest level of significant input determines the placement of the entire fair value
      measurement in the hierarchy. All of the investment securities held by the IIM Trust Funds at
      September 30, 2009 are valued using Level 2 inputs.

      The carrying value of cash and cash equivalents and accrued interest receivable reflected in the statements
      of assets and trust fund balances approximates fair value. The fair value of investment securities disclosed
      in note 4 represent the best estimate of prices that the securities could be sold for in the open market as of
      September 30, 2009 and 2008. Those fair values are measured using pricing services, pricing models, or
      broker quotes. Inputs into the pricing models include the securities par value, interest rate and maturity
      date. If broker quotes are used to value investment securities the fair value is estimated as the average of
      three broker quotes.

      The fair value methods described above may produce fair value disclosures that may not be indicative of
      net realizable value or reflective of future fair values. Furthermore, while management believes that the
      valuation methods used on the IIM Trust Funds are appropriate and consistent with other market
      participants, the use of different methodologies or assumptions to determine the disclosed fair value of
      investment securities could result in a different fair value measurement at the reporting date.




                                                        10                                              (Continued)
                          INDIVIDUAL INDIAN MONIES TRUST FUNDS
                    MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008



(6)   Contingencies
      Certain parties for whom OST holds funds in trust filed a class action lawsuit in 1996, seeking an
      accounting of their individual trust funds. Although plaintiffs sought $58 billion from the District Court in
      lieu of the accounting, the District Court awarded them $456 million. However, in July 2009 the Court of
      Appeals reversed and vacated that judgment. The plaintiffs may seek to have the case reviewed by the
      United States Supreme Court. Neither OST nor the Office of the Solicitor for the Department can presently
      determine the outcome of that potential appeal to the Supreme Court, if it is taken. Nor can they presently
      determine the total amount, responsibility, or funding source of the potential liability. Any future judgment
      award, or settlement that could result from negotiations, is not expected to be satisfied with individual trust
      funds. No amounts have been recorded in the accompanying IIM Trust Funds’ financial statements for
      potential claims from the U.S. Government.

(7)   Trust Fund Balances
      Trust fund balances are the aggregation of financial assets held in trust and primarily represent the amounts
      owed to beneficiaries as of September 30, 2009 and 2008 for which OST has a fiduciary responsibility.

      As of September 30, 2008, the net total of the balances reflected in the IIM account holders subsidiary
      detail of account holders’ balances exceeded the trust fund balances reported in the accompanying
      financial statements by approximately $6 million. During fiscal year 2009, OST received authority via the
      Omnibus Appropriations Act of 2009 to use up to $6 million in un-obligated funds to resolve historical
      accounting differences. Therefore, as of September 30, 2009 after the posting of adjusting entries the
      balances reflected in the IIM account holders subsidiary detail of account holders’ balances equal the trust
      fund balances in the accompanying financial statements.

      The subsidiary detail of IIM account balances contains approximately 11,000 special deposit accounts with
      balances totaling approximately $29 million and $31 million as of September 30, 2009 and 2008,
      respectively. The majority of the special deposit account monies held in the IIM Trust Funds relates to
      historical balances and has not been allocated because the allocation information for the funds has not been
      provided by BIA. Since the ultimate allocation is unknown at September 30, 2009, the portion attributable
      to the IIM Trust Funds is unknown.

      The subsidiary detail of IIM account balances contains certain oil and gas holding accounts with balances
      totaling approximately $7.7 million and $11.3 million as of September 30, 2009 and 2008, respectively,
      which have not been distributed to beneficiaries. Upon receipt of the allocation and accounting data, to be
      provided by MMS and BIA, the monies will be distributed to IIM account holders’ accounts (see note 8).

      A portion of trust fund balances represents estimated payments on production-type leases for which certain
      individual Indians and tribes hold an interest. When certain adjustments to production are identified,
      estimated payments received in excess of production are returned to the depositor or adjusted for in future
      payments.




                                                        11                                               (Continued)
                           INDIVIDUAL INDIAN MONIES TRUST FUNDS
                     MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
                    OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                         Notes to Financial Statements
                                         September 30, 2009 and 2008



(8)   Related-Party Transactions with Other Government Organizations
      (a)   U.S. Department of the Interior Bureau of Indian Affairs
            BIA is responsible for the collection of certain monies resulting from the management and use of
            Indian trust lands and other trust resources. Upon receipt, OST records the deposit of trust funds to
            trust accounts based on the information received from BIA.

      (b)   U.S. Department of the Interior Minerals Management Service
            For certain trust leases, MMS is responsible for the collection of royalty payments on behalf of
            Indian tribes and individual Indians holding mineral rights. MMS deposits the royalty payments with
            the U.S. Treasury and electronically transfers to OST the related accounting information, generally
            the next business day. For tribally/individually co-owned leases and individually owned leases, the
            allocation and accounting data to distribute the monies to the proper IIM account is forwarded,
            generally twice a month, to OST via electronic interface through the Royalty Distribution Reporting
            System that is maintained by BIA. Pursuant to established procedure and appropriate authorization,
            the data is recorded by OST. MMS and BLM both perform verification and other monitoring
            procedures of mineral assets. Oil and gas companies sometimes forward payments to MMS based on
            estimated mineral production in order to comply with the Federal Oil and Gas Royalty Management
            Act of 1982 that requires timely distribution of royalties. These estimated payments may be
            disbursed by OST to the beneficiaries. Typically, the oil and gas companies adjust future payments
            for excess or shortfall amounts, if any, based on actual production.

      (c)   Other
            The U.S. Treasury holds cash and certain investments and in certain instances disburses for OST.

            The Department’s Office of the Solicitor serves as legal counsel for OST.

(9)   Transfers of Trust Funds
      Certain per capita disbursements authorized by tribes result in transfers from the Tribal and Other Trust
      Funds to the IIM Trust Funds while certain oil and gas distributions may result in transfers to/from the IIM
      Trust Funds from/to the Tribal and Other Trust Funds. Net transfers of trust funds to the IIM Trust Funds
      from the Tribal and Other Trust Funds totaled approximately $56.7 million and $75.7 million during the
      years ended September 30, 2009 and 2008, respectively. These transfers are reflected as receipts in the
      accompanying statements of changes in trust fund balances. In addition, pursuant to information provided
      by BIA, OST historically utilized special deposit accounts (see note 7) maintained within the IIM Trust
      Funds for both tribal and IIM beneficiaries as suspense accounts, whereby funds are temporarily posted
      when allocation information is not provided when the funds are received. Following receipt of allocation
      information from BIA, the funds are transferred from the special deposit accounts to the designated tribal
      and/or IIM account(s).




                                                       12
           TRIBAL AND OTHER TRUST FUNDS
 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
       Independent Auditors’ Report on Internal Control over
     Financial Reporting and on Compliance and Other Matters

                       September 30, 2009
                               KPMG LLP
                               Suite 700
                               Two Park Square
                               6565 Americas Parkway NE
                               PO Box 3990
                               Albuquerque, NM 87190




                        Independent Auditors’ Report on Internal Control over
                      Financial Reporting and on Compliance and Other Matters


The Special Trustee for American Indians
U.S. Department of the Interior Office of the Special Trustee for American Indians; and

U.S. Department of the Interior Office of Inspector General:

We have audited the statements of assets and trust fund balances – cash basis of the Tribal and Other Trust
Funds as of September 30, 2009 and 2008, and the related statements of changes in trust fund balances –
cash basis for the years then ended, managed by the U.S. Department of the Interior Office of the Special
Trustee for American Indians (OST), and have issued our report thereon dated November 10, 2009. The
objective of our audit was to express an opinion on the fair presentation of the Tribal Trust Funds Financial
Statements. In connection with our fiscal year 2009 audit, we also considered internal control over
financial reporting for the Tribal and Other Trust Funds managed by OST and tested compliance with
certain provisions of applicable laws and regulations that could have a direct and material effect on the
Tribal Trust Funds Financial Statements.

Summary
Our audit report on the Tribal Trust Funds Financial Statements was qualified because it was not
practicable to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of trust fund
balances in the Tribal Trust Funds Financial Statements as of September 30, 2009 and 2008 due to the
effects of certain tribal parties for whom OST holds assets in trust disagreeing with the balances recorded
by OST, and/or having requested an accounting of their trust funds, and of which certain of these parties
have filed, or are expected to file, claims against the United States Government. Trust fund balances enter
into the determination of financial position and changes in trust fund balances.

Our audit report states that the Tribal Trust Funds Financial Statements are prepared in accordance with a
basis of accounting that is a comprehensive basis of accounting other than generally accepted accounting
principles, as described in note 2 to the Tribal Trust Funds Financial Statements.

Our consideration of internal control over financial reporting resulted in a condition related to unresolved
trust funds financial reporting matters from prior periods being identified as a significant deficiency.

The results of our tests of compliance with certain provisions of laws and regulations disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards, issued by the Comptroller General of the United States.

The following sections present an overview of the Tribal Trust Funds Financial Statements, and discuss our
consideration of internal control over financial reporting for the Tribal and Other Trust Funds managed by
OST, our tests of compliance with certain provisions of applicable laws and regulations for the Tribal and
Other Trust Funds managed by OST, and management’s and our responsibilities.



                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
Overview – Tribal Trust Funds Financial Statements
The United States Congress has designated the Secretary of the United States Department of the Interior
(the Secretary) as the trustee delegate with responsibility for the financial and nonfinancial resources held
in trust on behalf of American Indian tribes and other trust funds. In carrying out the management and
oversight of the Indian trust assets, the Secretary has a fiduciary responsibility to ensure monies are
received for the use of Indian lands and the extraction of natural resources from Indian lands, distribute
such monies collected to the appropriate beneficiaries, ensure that trust accounts are properly maintained
and invested, and ensure that accurate and complete reports are provided to the trust beneficiaries in
accordance with applicable law.

The American Indian Trust Fund Management Reform Act of 1994 (Public Law 103-412) (the Reform
Act) authorized the establishment of OST, which is headed by the Special Trustee for American Indians
(Special Trustee) who reports to the Secretary. Under this legislation, the Special Trustee is responsible for
oversight, reform, and coordination of the policies, procedures, systems, and practices used by various
bureaus and offices of the Department of the Interior (Department), including but not limited to OST, the
Bureau of Indian Affairs (BIA) (a component of Indian Affairs (IA)), the Minerals Management Service
(MMS), and the Bureau of Land Management (BLM), in managing Indian trust assets.

The Tribal Trust Funds are dependent upon the processing of trust-related transactions within certain
information systems of the Department, including but not limited to OST, BIA, MMS, and other
Departmental bureaus and offices. BIA and other Departmental bureaus and offices are responsible for
managing the natural resources located within the boundaries of Indian reservations and trust lands as well
as the processing of data regarding the ownership and leasing of Indian lands. The allocation and
distribution of receipts and disbursements by OST to trust beneficiaries are significantly dependent and
reliant upon the receipt of timely and accurate information derived from records maintained by BIA, MMS,
and other Departmental bureaus and offices.

Internal Control over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in the internal
control over financial reporting that might be deficiencies, significant deficiencies or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or combination
of deficiencies in internal control, that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. A material weakness is a deficiency, or combination of
deficiencies in internal control, such that there is a reasonable possibility that a material misstatement of
the financial statements will not be prevented or detected and corrected in a timely basis.

In our fiscal year 2009 audit, we consider the following deficiency to be a significant deficiency as a result
of historical internal control matters over financial reporting. This significant deficiency did not originate
in the current internal control environment:

Unresolved Trust Funds Financial Reporting Matters from Prior Periods
Indian trust assets, including the Tribal and Other Trust Funds, are primarily managed under the delegated
authority of OST and BIA. Management of Indian trust assets on behalf of the trust beneficiaries is
dependent upon the processing of trust-related transactions within certain information systems of the
Department, including but not limited to OST, BIA, MMS, and other Departmental bureaus and offices.


                                                  2
BIA and other Departmental bureaus and offices are responsible for managing the natural resources located
within the boundaries of Indian reservations and trust lands, as well as the processing of data regarding the
ownership and leasing of Indian lands. The allocation of receipts and disbursements by OST to trust
beneficiaries are significantly dependent and reliant upon the receipt of timely and accurate information
derived from records maintained by BIA, MMS, and other Departmental bureaus and offices.

The financial information systems and internal control procedures used in the processing of Indian trust
transactions have suffered historically from a variety of system and procedural internal control weaknesses.
In addition, current management is burdened with the ongoing impact of decades of accumulated
discrepancies in the accounting records. Furthermore, certain Indian trust beneficiaries do not agree with
the Indian trust balances and/or have requested an accounting of the Indian trust funds. The Department
has invested a significant amount of resources identifying historical records, isolating and working to
resolve historical differences and balances, and preparing an accounting of the Indian trust fund balances
and will continue with this historical accounting effort.

As of September 30, 2009, certain financial reporting matters from prior periods have not been resolved.
These items have an effect on the Tribal Trust Funds Financial Statements as of September 30, 2009 and
2008, and for the years then ended. These matters from prior periods, which have not been resolved,
include the following:

      Cash
      As of September 30, 2009 and 2008, there were 4 and 12 accounts, respectively, in the Trust Funds
      Accounting System (TFAS) with negative balances totaling approximately $382,000 and $721,000,
      respectively. As of September 30, 2009 and 2008, 4 and 11 of these balances, respectively were
      carried forward from the previous trust funds accounting system prior to the conversion to TFAS.

      Special Deposit Accounts
      As of September 30, 2009 and 2008, there were approximately 10,600 and 11,000 special deposit
      accounts, respectively, reflected in the Individual Indian Monies (IIM) subsidiary ledger in TFAS
      with balances totaling approximately $29 million and $31 million, respectively. In accordance with
      Title 25 of the Code of Federal Regulations and as directed by BIA, historically OST recorded
      receipts into special deposit accounts within the IIM subsidiary ledger when the recipient trust fund
      account was unknown at the time of receipt. When BIA determines the appropriate trust fund
      account(s), OST transfers the amount from the special deposit account(s) to the designated trust fund
      account(s) in accordance with BIA instructions. Beginning in fiscal year 2003, the Office of
      Historical Trust Accounting (OHTA) began working with OST and BIA to distribute funds in special
      deposit accounts that were opened on or before December 31, 2002. At September 30, 2009 and
      2008, the number of special deposit accounts represents historical balances that continue to require
      resolution and OHTA management is actively pursuing the resolution of these accounts.

Recommendation
We recommend that management of OST continue to work to resolve the unresolved Tribal Trust Funds
balances as soon as practicable. In situations where actions or inputs from Department officials are needed
to resolve a matter, we recommend management of OST continue to work with appropriate Department
officials such that all matters are resolved as soon as practical.

OST Management’s Response
Management does not concur that the findings above are a significant deficiency individually or
collectively. Based on Office of Management and Budget (OMB) Bulletin 06-03, a Significant Deficiency

                                                  3
is defined as: “…a deficiency in internal control, or combination of deficiencies, that adversely affects the
entity’s ability to initiate, authorize, record, process, or report financial data reliably in accordance with
generally accepted accounting principles such that there is more than a remote likelihood that a
misstatement of the entity’s financial statements that is more than inconsequential will not be prevented or
detected.” The historical conditions that resulted in the findings have been corrected through internal
controls that mitigate the risk of recurrence. These controls are in place and operating effectively,
therefore, there is no impact on the current financial internal control environment.

Additionally, management does not agree that the Special Deposit Accounts issue should be included
above as these balances are a part of the IIM Trust Fund balance. Policy has dictated that unidentified
monies that have been receipted into special deposit accounts are IIM funds until identified and as such are
invested as a part of the IIM pool of assets.

Auditors’ Response to Managements’ Response
As summarized above, management had not: (i) resolved certain financial reporting matters from prior
periods as of September 30, 2009, and (ii) a significant amount of special deposit accounts remained
undistributed as of September 30, 2009, of which some of the monies may or may not belong to the Tribal
and Other Trust Funds. Therefore, we continue to believe that the deficiencies identified constitute a
significant deficiency.

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards.

We noted other matters that we have reported to OST management in a separate letter dated November 10,
2009.

Responsibilities
Management’s Responsibilities
The Reform Act requires that the Secretary shall cause to be conducted an annual audit on a fiscal year
basis of all funds held in trust by the U.S. Government for the benefit of an Indian tribe that are deposited
or invested pursuant to the Act of June 24, 1938 (25 U.S.C. 162a).

Management is responsible for the Tribal Trust Funds Financial Statements, including:

•     Preparing the financial statements in conformity with the basis of accounting described in note 2 of
      the Tribal Trust Funds Financial Statements;
•     Establishing and maintaining effective internal control; and
•     Complying with laws and regulations applicable to the Tribal and Other Trust Funds managed by
      OST.

Auditors’ Responsibilities
Our responsibility is to express an opinion on the fiscal year 2009 and 2008 Tribal Trust Funds Financial
Statements based on our audit. Except as discussed in the fourth paragraph of our auditors’ report, we
conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform

                                                  4
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of internal control over financial reporting of the Tribal and Other Trust
Funds managed by OST. Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
      statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2009 audit, we considered internal control over financial
reporting for the Tribal and Other Trust Funds managed by OST by obtaining an understanding of the
internal controls, determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to provide an opinion on internal control over
financial reporting for the Tribal and Other Trust Funds managed by OST. Accordingly, we do not express
an opinion on the effectiveness of the Tribal Trust Funds’ internal control over financial reporting.

As part of obtaining reasonable assurance about whether the fiscal year 2009 Tribal Trust Funds Financial
Statements are free of material misstatement, we tested compliance with certain provisions of laws and
regulations for the Tribal and Other Trust Funds managed by OST, noncompliance with which could have
a direct and material effect on the determination of financial statement amounts. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws and regulations applicable to the Tribal and Other Trust Funds managed by OST. However, providing
an opinion on compliance with laws and regulations was not an objective of our audit, and accordingly, we
do not express such an opinion.

                                            * * * * * * *

We did not audit managements’ responses to the findings identified above and, accordingly, we express no
opinion on them.

This report is intended solely for the information and use of the Department’s management, the
U.S. Department of the Interior Office of Inspector General, Office of Management and Budget, the
U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be and should not
be used by anyone other than these specified parties.




November 10, 2009



                                                  5
                                                                                                 Exhibit I
                          TRIBAL AND OTHER TRUST FUNDS
                MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
               OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                  Status of Prior Year Findings, Reported as of September 30, 2008
                                         September 30, 2009



   Reference                 Condition                              Current-Year Status

OST-2008-A       Unresolved Financial Reporting        Repeated, with certain modifications. See
                 Matters from Prior Periods            current-year Tribal and Other Trust Funds
                                                       Independent Auditors’ Report on Internal
                                                       Control over Financial Reporting and on
                                                       Compliance and Other Matters.

OST-2008-B       Reliance on Processing of Trust       References to the Departmental Offices
                 Transactions at the Bureau of         Independent Auditors’ Report on Internal
                 Indian Affairs                        Control Over Financial Reporting and on
                                                       Compliance and Other Matters have been
                                                       removed from the current-year Tribal and
                                                       Other Trust Funds Independent Auditors’
                                                       Report on Internal Control Over Financial
                                                       Reporting and on Compliance and Other
                                                       Matters due to the resolution of certain matters.
                                                       See the Departmental Offices Independent
                                                       Auditors’ Report on Internal Control Over
                                                       Financial Reporting and on Compliance and
                                                       Other Matters for matters reported in the
                                                       current year.




                                                   6
       INDIVIDUAL INDIAN MONIES TRUST FUNDS
 MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
       Independent Auditors’ Report on Internal Control over
     Financial Reporting and on Compliance and Other Matters

                       September 30, 2009
                               KPMG LLP
                               Suite 700
                               Two Park Square
                               6565 Americas Parkway NE
                               PO Box 3990
                               Albuquerque, NM 87190




                        Independent Auditors’ Report on Internal Control over
                      Financial Reporting and on Compliance and Other Matters


The Special Trustee for American Indians
U.S. Department of the Interior Office of the Special Trustee for American Indians; and

U.S. Department of the Interior Office of Inspector General:

We have audited the statements of assets and trust fund balances – modified cash basis of the Individual
Indian Monies Trust Funds (IIM Trust Funds) as of September 30, 2009 and 2008, and the related
statements of changes in trust fund balances – modified cash basis for the years then ended, managed by
the U.S. Department of the Interior Office of the Special Trustee for American Indians (OST), and have
issued our report thereon dated November 10, 2009. The objective of our audit was to express an opinion
on the fair presentation of the IIM Trust Funds Financial Statements. In connection with our fiscal year
2009 audit, we also considered internal control over financial reporting for the IIM Trust Funds managed
by OST and tested compliance with certain provisions of applicable laws and regulations that could have a
direct and material effect on the IIM Trust Funds Financial Statements.

Summary
Our audit report on the IIM Trust Funds Financial Statements was qualified because it was not practicable
to extend our auditing procedures sufficiently to satisfy ourselves as to the fairness of trust fund balances in
the IIM Trust Funds Financial Statements as of September 30, 2009 and 2008 due to the effects of certain
parties for whom OST holds financial assets in trust having filed a class action lawsuit for an accounting of
the individuals’ trust funds. Trust fund balances enter into the determination of financial position and
changes in trust fund balances.

Our audit report states that the IIM Trust Funds Financial Statements are prepared in accordance with a
basis of accounting that is a comprehensive basis of accounting other than generally accepted accounting
principles, as described in note 2 to the IIM Trust Funds Financial Statements.

Our consideration of internal control over financial reporting resulted in a condition related to unresolved
trust funds financial reporting matters from prior periods being identified as a significant deficiency.

The results of our tests of compliance with certain provisions of laws and regulations disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards, issued by the Comptroller General of the United States.

The following sections present an overview of the IIM Trust Funds Financial Statements, and discuss our
consideration of internal control over financial reporting for the IIM Trust Funds managed by OST, our
tests of compliance with certain provisions of applicable laws and regulations for the IIM Trust Funds
managed by OST, and management’s and our responsibilities.




                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
Overview – IIM Trust Funds Financial Statements
The United States Congress has designated the Secretary of the United States Department of the Interior
(the Secretary) as the trustee delegate with responsibility for the financial and nonfinancial resources held
in trust on behalf of individual Indians. In carrying out the management and oversight of the Indian trust
assets, the Secretary has a fiduciary responsibility to ensure monies are received for the use of Indian lands
and the extraction of natural resources from Indian lands, distribute such monies collected to the
appropriate beneficiaries, ensure that trust accounts are properly maintained and invested, and ensure that
accurate and complete reports are provided to the trust beneficiaries in accordance with applicable law.

The American Indian Trust Fund Management Reform Act of 1994 (Public Law 103-412) (the Reform
Act) authorized the establishment of OST, which is headed by the Special Trustee for American Indians
(Special Trustee) who reports to the Secretary. Under this legislation, the Special Trustee is responsible for
oversight, reform, and coordination of the policies, procedures, systems, and practices used by various
bureaus and offices of the Department of the Interior (Department), including but not limited to OST, the
Bureau of Indian Affairs (BIA) (a component of Indian Affairs (IA)), the Minerals Management Service
(MMS), and the Bureau of Land Management (BLM), in managing Indian trust assets.

The IIM Trust Funds are dependent upon the processing of trust-related transactions within certain
information systems of the Department, including but not limited to OST, BIA, MMS, and other
Departmental bureaus and offices. BIA and other Departmental bureaus and offices are responsible for
managing the natural resources located within the boundaries of Indian reservations and trust lands as well
as the processing of data regarding the ownership and leasing of Indian lands. The allocation and
distribution of receipts and disbursements by OST to trust beneficiaries are significantly dependent and
reliant upon the receipt of timely and accurate information derived from records maintained by BIA, MMS,
and other Departmental bureaus and offices.

Internal Control over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in the internal
control over financial reporting that might be deficiencies, significant deficiencies or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or combination
of deficiencies in internal control, that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. A material weakness is a deficiency, or combination of
deficiencies in internal control, such that there is a reasonable possibility that a material misstatement of
the financial statements will not be prevented or detected and corrected on a timely basis.

In our fiscal year 2009 audit, we consider the following deficiency to be a significant deficiency as a result
of historical internal control matters over financial reporting. This significant deficiency did not originate
in the current internal control environment:

Unresolved Trust Funds Financial Reporting Matters from Prior Periods
Indian trust assets, including the IIM Trust Funds, are primarily managed under the delegated authority of
OST and BIA. Management of Indian trust assets on behalf of the trust beneficiaries is dependent upon the
processing of trust-related transactions within certain information systems of the Department, including but
not limited to OST, BIA, MMS, and other Departmental bureaus and offices. BIA and other Departmental
bureaus and offices are responsible for managing the natural resources located within the boundaries of

                                                  2
Indian reservations and trust lands, as well as the processing of data regarding the ownership and leasing of
Indian lands. The allocation of receipts and disbursements by OST to trust beneficiaries are significantly
dependent and reliant upon the receipt of timely and accurate information derived from records maintained
by BIA, MMS, and other Departmental bureaus and offices.

The financial information systems and internal control procedures used in the processing of Indian trust
transactions have suffered historically from a variety of system and procedural internal control weaknesses.
In addition, current management is burdened with the ongoing impact of decades of accumulated
discrepancies in the accounting records. Furthermore, certain Indian trust beneficiaries do not agree with
the Indian trust balances and have requested an accounting of the Indian trust funds. The Department has
invested a significant amount of resources identifying historical records, isolating and working to resolve
historical differences and balances, and preparing an accounting of the Indian trust fund balances and will
continue with this historical accounting effort.

As of September 30, 2009, certain financial reporting matters from prior periods have not been resolved.
These items have an effect on the IIM Trust Funds Financial Statements as of September 30, 2009 and
2008, and for the years then ended. These matters from prior periods, which have not been resolved,
include the following:

      Special Deposit Accounts
      As of September 30, 2009 and 2008, there were approximately 10,600 and 11,000 special deposit
      accounts, respectively, reflected in the IIM subsidiary ledger in the Trust Funds Accounting System
      (TFAS) with balances totaling approximately $29 million and $31 million, respectively. In
      accordance with Title 25 of the Code of Federal Regulations and as directed by BIA, historically
      OST recorded receipts into special deposit accounts within the IIM subsidiary ledger when the
      recipient trust fund account was unknown at the time of receipt. When BIA determines the
      appropriate trust fund account(s), OST transfers the amount from the special deposit account(s) to
      the designated trust fund account(s) in accordance with BIA instructions. Beginning in fiscal year
      2003, the Office of Historical Trust Accounting (OHTA) began working with OST and BIA to
      distribute funds in special deposit accounts that were opened on or before December 31, 2002. At
      September 30, 2009 and 2008, the number of special deposit accounts represents historical balances
      that continue to require resolution and OHTA management is actively pursuing the resolution of
      these accounts.

      Trust Fund Balances
      An historical “undistributed interest” house account of approximately $1,205,000 existed at
      September 30, 1990. The balances as of September 30, 2009 and 2008 were approximately
      $2,500,000 and $2,400,000, respectively. Interest earned on these funds is recorded in the house
      account. The allocation of these funds has not been determined.

      During fiscal years 2002 and 2004, approximately $922,000 and $375,000, respectively, was
      transferred from certain special deposit accounts to “undistributed interest” house accounts in
      connection with the review of certain special deposit accounts performed by OST, together with BIA
      and a contractor. Interest earned on these funds was recorded in current IIM accounts through
      September 30, 2005. Beginning October 1, 2005, interest earned on these funds was recorded in the
      respective undistributed interest accounts. The balances as of September 30, 2009 were
      approximately $1,115,000 and $493,000, respectively, and as of September 30, 2008 were
      approximately $1,062,000 and $470,000, respectively. The allocation of these funds has not been
      determined.


                                                  3
During fiscal year 2009, the following financial reporting difference from previous years was resolved:

      Lack of Reliable Balance
      The TFAS control account for the IIM Trust Funds represents the aggregate net balance of trust
      funds held on behalf of IIM account holders, as well as house/suspense accounts, as reflected in the
      detailed subsidiary ledger of IIM accounts (subsidiary ledger) also in TFAS. The control account
      balance had historically not agreed to the sum of the balances from the subsidiary ledger and it could
      not be determined which balance, if either, was correct. Historically, the amount invested for IIM
      was based on the IIM control account balance in TFAS. Consequently, the balance of funds invested
      for IIM may not have been correct, which in turn would affect interest earnings. As of September 30,
      2008, the balance of all subsidiary ledger account balances exceeded the IIM control account balance
      in TFAS by approximately $6,000,000. During 2009, OST received authority via the Omnibus
      Appropriations Act of 2009 to use up to $6 million in un-obligated funds to resolve historical
      accounting differences. As a result, as of September 30, 2009 after the posting of adjusting entries
      the control account balance agreed to the sum of balances from the subsidiary ledger.

Recommendation
We recommend that management of OST continue to work to resolve the unresolved IIM Trust Funds
financial reporting balances as soon as practicable. In situations where actions or inputs from Department
officials are needed to resolve a matter, we recommend management of OST continue to work with
appropriate Department officials such that all matters are resolved as soon as practical.

OST Management’s Response
Management does not concur that the findings above are a significant deficiency individually or
collectively. Based on Office of Management and Budget (OMB) Bulletin 06-03, a Significant Deficiency
is defined as: “…a deficiency in internal control, or combination of deficiencies, that adversely affects the
entity’s ability to initiate, authorize, record, process, or report financial data reliably in accordance with
generally accepted accounting principles such that there is more than a remote likelihood that a
misstatement of the entity’s financial statements that is more than inconsequential will not be prevented or
detected.” The historical conditions that resulted in the findings have been corrected through internal
controls that mitigate the risk of recurrence. These controls are in place and operating effectively,
therefore, there is no impact on the current financial internal control environment.

Auditors’ Response to Managements’ Response
As summarized above, management had not resolved certain financial reporting matters from prior periods
as of September 30, 2009. Therefore, we continue to believe that the deficiencies identified constitute a
significant deficiency.

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards.

We noted other matters that we have reported to OST management in a separate letter dated November 10,
2009.




                                                  4
Responsibilities
Management’s Responsibilities
The Reform Act requires that the Secretary shall cause to be conducted an annual audit on a fiscal year
basis of all funds held in trust by the U.S. Government for the benefit of an individual Indian that are
deposited or invested pursuant to the Act of June 24, 1938 (25 U.S.C. 162a).

Management is responsible for the IIM Trust Funds Financial Statements, including:

•     Preparing the financial statements in conformity with the basis of accounting described in note 2 of
      the IIM Trust Funds Financial Statements;
•     Establishing and maintaining effective internal control; and
•     Complying with laws and regulations applicable to the IIM Trust Funds managed by OST.

Auditors’ Responsibilities
Our responsibility is to express an opinion on the fiscal year 2009 and 2008 IIM Trust Funds Financial
Statements based on our audit. Except as discussed in the fourth paragraph of our auditors’ report, we
conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of internal control over financial reporting of the IIM Trust Funds managed
by OST. Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
      statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2009 audit, we considered internal control over financial
reporting for the IIM Trust Funds managed by OST by obtaining an understanding of the internal controls,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements. We limited our internal control testing to those controls necessary to achieve
the objectives described in Government Auditing Standards. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our audit was not to provide an opinion on internal control over financial reporting for the IIM
Trust Funds managed by OST. Accordingly, we do not express an opinion on the effectiveness of the IIM
Trust Funds’ internal control over financial reporting.




                                                  5
As part of obtaining reasonable assurance about whether the fiscal year 2009 IIM Trust Funds Financial
Statements are free of material misstatement, we tested compliance with certain provisions of laws and
regulations for the IIM Trust Funds managed by OST, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts. We limited our tests of compliance to
the provisions described in the preceding sentence, and we did not test compliance with all laws and
regulations applicable to the IIM Trust Funds managed by OST. However, providing an opinion on
compliance with laws and regulations was not an objective of our audit, and accordingly, we do not
express such an opinion.

                                           * * * * * * *

We did not audit managements’ responses to the findings identified above and, accordingly, we express no
opinion on them.

This report is intended solely for the information and use of the Department’s management, the
U.S. Department of the Interior Office of Inspector General, Office of Management and Budget, the
U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be and should not
be used by anyone other than these specified parties.




November 10, 2009




                                                6
                                                                                                 Exhibit I
                      INDIVIDUAL INDIAN MONIES TRUST FUNDS
                MANAGED BY THE U.S. DEPARTMENT OF THE INTERIOR
               OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                  Status of Prior Year Findings, Reported as of September 30, 2008
                                         September 30, 2009



   Reference                 Condition                              Current-Year Status

OST-2008-A       Unresolved Financial Reporting        Repeated, with certain modifications. See
                 Matters from Prior Periods            current-year Individual Indian Monies Trust
                                                       Funds Independent Auditors’ Report on
                                                       Internal Control over Financial Reporting and
                                                       on Compliance and Other Matters.

OST-2008-B       Reliance on Processing of Trust       References to the Departmental Offices
                 Transactions at the Bureau of         Independent Auditors’ Report on Internal
                 Indian Affairs                        Control Over Financial Reporting and on
                                                       Compliance and Other Matters have been
                                                       removed from the current-year Individual
                                                       Indian Monies Trust Funds Independent
                                                       Auditors’ Report on Internal Control Over
                                                       Financial Reporting and on Compliance and
                                                       Other Matters due to the resolution of certain
                                                       matters. See the Departmental Offices
                                                       Independent Auditors’ Report on Internal
                                                       Control Over Financial Reporting and on
                                                       Compliance and Other Matters for matters
                                                       reported in the current year.




                                                   7
